No. 20-843

 

IN THE

Supreme Court of the United States

NEw YorRK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON Koc,

Petitioner,
v.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF THE NEW YORK STATE POLICE,
RICHARD J. MCNALLY, JR., IN HIS OFFICIAL CAPACITY AS
JUSTICE OF THE NEW YORK SUPREME COURT,
THIRD JUDICIAL DISTRICT, AND LICENSING OFFICER
FOR RENSSELAER COUNTY,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF FORMER MAJOR CITY
POLICE CHIEFS AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,781 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
